 OE F 1325.8
(08-93)
United States Government                                                                                     Department of Energy


memorandum
          DATE:
                   August 13, 2007                      .            .                      Audit Report Number: OAS-L-07-18
    REPLY TO
    ATTN OF:       IG-32 (A07PR061)

    SUBJECT:       Audit of Executive Compensation at Brookhaven National Laboratory

           TO:     Manager, Brookhaven Site Office


                  INTRODUCTION AND OBJECTIVE

                  As part of a Department of Energy-wide audit of executive compensation, we
                  reviewed executive compensation at the Office of Science's Brookhaven National
                  La   ---   tc.
                              _    .   .r   .   ....    n
                                                       av   .   Ou       audit covered executive cuupoci'A     ;is   in curred
                  and claimed for Fiscal Years 2003, 2004, and 2005. Brookhaven Science Associates,
                  LLC, operated Brookhaven under Department of Energy (Department) contract
                  number DE-AC02-98CH10886.

                  The amount of executive compensation that can be reimbursed to Department
                  contractors is limited by legislation, regulations, and contract terms. For example,
                  reimbursable compensation is limited to the annual cap determined by the
                  Administrator, Office of Federal Procurement Policy (OFPP). In addition, Department
                  of Energy Acquisition Regulations, Federal Acquisition Regulations (FAR),
                  Department policies and guidance, as well as contract provisions establish limitations
                  and guidelines for determining whether executive compensation is reasonable and
                  allowable. Generally, executive compensation includes salaries, bonuses, incentive
                  compensation, pension contributions, health benefits, and other fringe benefits.

                  The objective of our Department-wide audit was to determine whether executive
                  compensation reimbursed to contractors was allowable, consistent with coitract terms,
                  and conformed with applicable Federal requirements and guidance.

                  CONCLUSIONS AND OBSERVATIONS

                  We found that Brookhaven executive compensation costs reimbursed to Brookhaven
                  Science Associates did not exceed the annual cap determined by the Administrator,
                  OFPP, and compensation generally complied with applicable provisions of
                  procurement regulations, Department policies and guidance, and the Brookhaven
                  contract. However, we identified questioned costs related to Brookhaven's executive
                  compensation. Specifically, we questioned $31,472 consisting of $10,727 for an
                  executive's salary in excess of the approved salary ceiling and $20,745 for fringe
                  benefit costs associated with unallowable salary costs. Details of our questioned costs
                  are as follows:
                             Salary for Brookhaven Executive

We questioned the amount that an executive's salary exceeded the salary ceiling
approved by the contracting officer. Brookhaven agreed with our finding and in.
February 2007 credited the contract in the amount of $10,727 for the questioned salary
and applicable pension benefits.

                         Fringe Benefits for Unallowable Salaries

We questioned $20,745 charged to the Brookhaven contract for fringe benefit costs
associated with unallowable salary costs. For some executives, Brookhaven paid
salaries that exceeded the salary ceilings approved by the contracting officer.
Appropriately, the contractor did not charge the contract for salary costs in excess of
approved ceilings and for associated pension costs. However, the contractor charged
the contract with non-pension fringe benefit costs associated with unallowable
salaries. For the 3-year period covered by our audit, we estimated this overcharge of
fringe benefits to be about $20,745.

Brookhaven's representative stated that Acquisition Letter 2000-12 allowed fringe
benefit costs irrespective o ay ay        ap. However, we do not agree with .
Brookhaven's interpretation of Acquisition Letter 2000-12 because the section cited by
Brookhaven's representative does not address fringe benefit costs associated with
unallowable salary. Fringe benefit costs associated with unallowable salary are
unallowable because the FAR stipulates that unallowable costs should normally
include all directly associated costs, and Brookhaven's Cost Accounting Standards
Disclosure Statement, which describes Brookhaven's cost accounting practices, states
that Brookhaven's full fringe benefit rate is to be applied to all salaries, which would
include unallowable salaries. Therefore, the fringe benefit costs directly associated
with the unallowable salary costs were also unallowable.

RECOMMENDATIONS

We recommend that the Manager, Brookhaven.Site Office, direct the contracting
officer to:

    1) Determine the allowability of our questioned costs and recover costs
       determined to be unallowable; and

    2)    Determine whether costs, similar to those identified in our audit, were claimed
         after September 30, 2005, and recover costs determined to be unallowable.

SCOPE AND METHODOLOGY

The Department-wide audit was conducted from July 2006 to July 2007 at the Office
of Management, Department support offices and site offices, and 13 contractor sites,
including Brookhaven National Laboratory in Upton, New York. The scope of the
Department-wide audit covered executive compensation costs incurred and claimed
for Fiscal Years 2003, 2004, and 2005 and included the compensation of about
200 executives including facility directors, deputy directors, key personnel, and other

                                    2
SUO/O/UI   Y.VAJ    AUL.AV   FAA   OU   *OVi              SI       -    -            -   -00   .




                   senior management employees. Compensation included salaries, bonuses, incentive
                   compensation, pension contributions, health benefits, other fringe benefits, travel and
                   relocation reimbursements, and any other paymerts made to the executive or on behalf
                   of the executive.

                   To accomplish the audit objective, we identified executives and their compensation;
                   verified compensation to accounting records and supporting documentation; and,
                   tested compliance with legislation, regulations, Department policies and guidance, and
                   contracts.

                   We conducted the audit in accordance with generally accepted Government auditing
                   standards for performance audits and included tests of internal controls and
                   compliance with laws and regulations to the extent necessary to satisfy the audit
                   objective. Because our review was limited, it would not necessarily have disclosed all
                   internal control deficiencies that may have existed at the time of our audit. Also, we
                   considered the establishment of performance measures in accordance with the
                   Government Performanceand Results Act of 1993, as they related to the audit
                   objective, and found that the Department had not established performance measures
                   specifically addressing executive compensation. We relied on computer-processed
                   data to accomplish the audit objective. When appropriate, we performed limited test
                   work of data reliability during.o-Lw a,.aI;ar determined that we coUrd-Tiy-n the       -
                   computer-processed data.

                   We discussed our questioned costs with the contracting officer.

                   We appreciate the.cooperation of your staff during our review. Please advise us.within
                   15 work days of any action you plan to take with respect to our recommendations.




                                                            redrick G. Pieper, Director
                                                          Energy, Science and Environmental
                                                            Audits Division
                                                          Office of Inspector General

               cc:      Chief Operating Officer, SC
                        Director, Office of Management
                        Team Leader, Audit Liaison Team, CF-1.2
                        Audit Liaison, MA-70
                        Audit Liaison, SC-32.1
                        Audit Liaison, SC-CH
                        Audit Liaison, SC-BHSO




                                                      3
